     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103

October 5, 2010

Report Number: A-09-10-02042

Mr. Mike Barlow
Vice President
Palmetto GBA
4249 Easton Way, Suite 400
Columbus, OH 43219

Dear Mr. Barlow:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part B Carrier Payments for Neulasta
Injections in California and Hawaii for Calendar Years 2004 Through 2007. We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call Lorrali
Herrera, Senior Auditor, at (619) 557-6131, extension 105, or through email at
Lorrali.Herrera@oig.hhs.gov, or contact Alice Norwood, Audit Manager, at (415) 437-8360 or
through email at Alice.Norwood@oig.hhs.gov. Please refer to report number A-09-10-02042 in
all correspondence.

                                             Sincerely,



                                             Lori A. Ahlstrand
                                             Regional Inspector General
                                              for Audit Services


Enclosure
Page 2 – Mr. Mike Barlow


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF MEDICARE PART B
  CARRIER PAYMENTS FOR
 NEULASTA INJECTIONS IN
CALIFORNIA AND HAWAII FOR
     CALENDAR YEARS
    2004 THROUGH 2007




                      Daniel R. Levinson
                       Inspector General

                        October 2010
                        A-09-10-02042
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Before October 1, 2005, section 1842(a) of the Act authorized CMS to contract with carriers.
For purposes of this report, the term “Medicare contractor” means the fiscal intermediary,
carrier, or Medicare administrative contractor, whichever is applicable.

Medicare contractors process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). Medicare contractors also review provider records to ensure
proper payment and assist in applying safeguards against unnecessary utilization of services. To
process providers’ Part B claims, Medicare contractors use the Medicare Multi-Carrier Claims
System and CMS’s Common Working File. These systems can detect certain improper
payments during prepayment validation.

Individuals receiving chemotherapy often suffer from a low white blood cell count. Providers
inject patients with pegfilgrastim (Neulasta), usually in 6-milligram doses, to stimulate bone
marrow and promote the growth of white blood cells. Before January 1, 2004, CMS assigned
Healthcare Common Procedure Coding System (HCPCS) code Q4053 to Neulasta injections and
defined one service unit as 1 milligram. Effective January 1, 2004, CMS changed the HCPCS
code for Neulasta to J2505 and defined one service unit as 6 milligrams, which represented a
standard dose.

During calendar years (CY) 2004 through 2007, National Heritage Insurance Company (NHIC)
and Noridian Mutual Insurance Company (Noridian) were the Medicare Part B carriers for
California and Hawaii, respectively. During this period, NHIC and Noridian processed and paid
more than 292 million Part B claims, of which 75,587 claims included Neulasta injections in
these two States. In September 2008, Palmetto GBA (Palmetto) assumed full responsibility as
the Medicare administrative contractor for Jurisdiction 1, which includes California and Hawaii.
Although Palmetto did not process or pay any of the claims we reviewed in our audits of selected
providers, it is responsible for resolving any issues identified in this report.

OBJECTIVE

Our objective was to consolidate the results of our reviews of seven selected Medicare Part B
providers in California and Hawaii that billed Medicare for Neulasta injections. Those reviews
determined whether the seven providers billed Medicare for the correct number of service units
of Neulasta.




                                                i
SUMMARY OF RESULTS

For 105 Medicare claims reviewed, 7 providers in California and Hawaii billed Medicare for the
incorrect number of service units of Neulasta. Consequently, during CYs 2004 through 2007,
NHIC and Noridian paid these providers $398,704 instead of $204,751, resulting in
overpayments totaling $193,953. NHIC and Noridian made these overpayments because the
providers billed for more than one service unit for every 6 milligrams of Neulasta administered.

RECOMMENDATION

We recommend that Palmetto consider reviewing Neulasta claims with the incorrect number of
service units that were not part of this review.

PALMETTO COMMENTS

In its comments on our draft report, Palmetto concurred with the results of our reviews at the
seven providers in California and Hawaii and stated that it will take our recommendation under
advisement. Palmetto’s comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Medicare Part B Contractors ....................................................................................1
              Medically Unlikely Edits .........................................................................................1
              Payment for Neulasta ...............................................................................................2
              Medicare Contractors for California and Hawaii ....................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope ........................................................................................................................3
               Methodology ............................................................................................................3

RESULTS OF REVIEWS AND RECOMMENDATION..........................................................4

          MEDICARE REQUIREMENTS .........................................................................................4

          INCORRECT NUMBER OF SERVICE UNITS BILLED .................................................4

          MEDICARE SYSTEM EDITS............................................................................................5

          RECOMMENDATION .......................................................................................................5

          PALMETTO COMMENTS.................................................................................................5

OTHER MATTER.........................................................................................................................6

APPENDIX

          PALMETTO GBA COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Part B Contractors

Before October 1, 2005, section 1842(a) of the Act authorized CMS to contract with carriers. 1
Medicare contractors process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). Medicare contractors also review provider records to ensure
proper payment and assist in applying safeguards against unnecessary utilization of services. To
process providers’ Part B claims, Medicare contractors use the Medicare Multi-Carrier Claims
System and CMS’s Common Working File. These systems can detect certain improper
payments during prepayment validation.

CMS guidance requires Medicare contractors to pay for certain drugs based on the published
average sales price. 2 CMS guidance also requires providers to bill accurately and to report units
of service as the number of times that the provider performed a service or procedure. During
CYs 2004 through 2007, providers nationwide submitted approximately 3.2 billion Part B
claims, totaling over $294 billion, to Medicare contractors. Of these claims, over 1 million
claims for pegfilgrastim (Neulasta) 3 injections resulted in payments of approximately
$1.7 billion.

Medically Unlikely Edits

In January 2007, during our audit period, CMS required Medicare contractors to implement
units-of-service edits referred to as “medically unlikely edits.” CMS designed these edits to
detect and deny unlikely Medicare claims on a prepayment basis. According to the CMS
Medicare Program Integrity Manual, Pub. No. 100-08, Transmittal 178, Change Request 5402
(December 8, 2006), a “medically unlikely edit” tests claim lines for the same beneficiary,
procedure code, date of service, and billing provider against a specified number of service units.
Medicare contractors must deny the entire claim line when the service units billed exceed the
specified number.


1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
between October 2005 and October 2011. Most, but not all, of the Medicare administrative contractors are fully
operational; for jurisdictions where the Medicare administrative contractors are not fully operational, fiscal
intermediaries and carriers continue to process claims. For purposes of the report, the term “Medicare contractor”
means the fiscal intermediary, carrier, or Medicare administrative contractor, whichever is applicable.
2
 Pursuant to 42 CFR § 414.707(a)(1), the payment allowance limit in calendar year (CY) 2004 was 85 percent of the
average wholesale price. However, beginning January 1, 2005, 42 CFR § 414.904(a) established the payment
allowance limit as 106 percent of the average sales price.
3
    Neulasta is Amgen’s registered trademark for the medication pegfilgrastim.

                                                           1
Payment for Neulasta

Individuals receiving chemotherapy often suffer from a low white blood cell count. Providers
inject patients with Neulasta, usually in 6-milligram doses, to stimulate bone marrow and
promote the growth of white blood cells. For Part B drugs, including Neulasta, Medicare
contractors determine the provider payment amount as the lesser of the Part B drug fee schedule
amount times the number of units billed or the claimed amount.

In 2003, CMS assigned the administration of Neulasta injections the Healthcare Common
Procedure Coding System (HCPCS) code Q4053, which defined the unit size as 1 milligram.
Providers billed for six units because they usually administer the drug in 6-milligram doses
(generally from a prefilled syringe). Effective January 1, 2004, the HCPCS code changed to
J2505 and identified a 6-milligram dose as one unit.

CMS documented the new HCPCS code J2505 for Neulasta with changes to its Medicare Claims
Processing Manual, Pub. No. 100-04. On December 24, 2003, CMS issued Transmittal 54,
Change Request 3022, to Medicare contractors that defined a service unit under HCPCS code
J2505 as “injection, pegfilgrastim [Neulasta] 6mg.” On May 12, 2006, CMS issued
Transmittal 949, Change Request 4380, to Medicare contractors (fiscal intermediaries but not
carriers) clarifying the billing procedures for Neulasta. The change request stated: “Claims for
Pegfilgrastim J2505 [Neulasta] shall be submitted to Medicare contractors so that the units billed
represent the number of multiples of 6MG provided, not the number of MGs.” Similarly,
notification of the description of HCPCS code J2505 as one dose of 6 milligrams was published
three times in the Federal Register in 2004, beginning on January 6, 2004.

Medicare Contractors for California and Hawaii

During CYs 2004 through 2007, National Heritage Insurance Company (NHIC) and Noridian
Mutual Insurance Company (Noridian), which administered the Medicare program under
contracting arrangements with CMS, were the Medicare Part B carriers for California and
Hawaii, respectively. During this period, NHIC and Noridian processed and paid more than
292 million Part B claims, of which 75,587 claims included Neulasta injections in these two
States.

In September 2008, Palmetto GBA (Palmetto) assumed full responsibility as the Medicare
administrative contractor for Jurisdiction 1. California and Hawaii are part of Jurisdiction 1.
Although Palmetto did not process or pay any of the claims we reviewed as part of our audits of
selected providers, it is responsible for resolving any issues identified in this report.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to consolidate the results of our reviews of seven selected Medicare Part B
providers in California and Hawaii that billed Medicare for Neulasta injections. Those reviews
determined whether the seven providers billed Medicare for the correct number of service units
of Neulasta.

                                                2
Scope

To select the providers, we identified paid Medicare Part B claims for Neulasta injections for
which providers billed more than one service unit and had potential overpayments greater than
$5,000. We identified and reviewed 105 claims billed by 7 providers in California and Hawaii
that NHIC and Noridian processed and paid during CYs 2004 through 2007.

We did not review the seven providers’ internal controls because our objective did not require an
understanding of controls over the submission of claims. However, we performed a limited
review of internal controls applicable to the processing and paying of claims for Neulasta
injections at the current Medicare contractor, Palmetto. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from CMS’s National
Claims History file, but we did not assess the completeness of the file.

We conducted our fieldwork from February to October 2009, which included contacting the
seven providers in California and Hawaii that received payments for Neulasta injections. In
addition, we contacted officials from Palmetto located in Columbus, Ohio, from March through
August 2010.

Methodology

To determine whether the selected providers billed Medicare for the correct number of service
units of Neulasta, we:

   •    reviewed applicable Medicare laws, regulations, and guidance;

   •    used CMS’s National Claims History file to identify paid Medicare Part B claims with
        more than one service unit of Neulasta that had not been reviewed in other audits;

   •    contacted the providers to determine whether the service units of Neulasta were billed
        correctly and, if not, why the service units were billed incorrectly;

   •    reviewed Medicare claim forms, patient medical records, and providers’ additional
        supporting documentation that supported the identified claims;

   •    used the Medicare Part B drug fee schedules, published by CMS, to calculate
        overpayments identified in CYs 2004 and 2005; and

   •    confirmed with the providers that overpayments occurred.

We issued a restricted report to each of the seven providers in November and December 2009.

We also interviewed staff from Palmetto to determine whether it had issued guidance to its
providers and had any policies, system edits, or other claims processing controls to prevent
overpayments for Neulasta.



                                                3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                       RESULTS OF REVIEWS AND RECOMMENDATION

For 105 Medicare claims reviewed, 7 providers in California and Hawaii billed Medicare for the
incorrect number of service units of Neulasta. Consequently, during CYs 2004 through 2007,
NHIC and Noridian paid these providers $398,704 instead of $204,751, resulting in
overpayments totaling $193,953. 4 NHIC and Noridian made these overpayments because the
providers billed for more than one service unit for every 6 milligrams of Neulasta administered.

MEDICARE REQUIREMENTS

CMS’s Carriers Manual, Pub. No. 14, part 2, section 5261.1, requires that Medicare contractors
process claims accurately in accordance with Medicare program laws, regulations, and
instructions. Section 5261.3 of the manual requires Medicare contractors to develop a medical
review program that “effectively and continually analyzes data that identifies aberrancies,
emerging trends and areas of potential abuse, overutilization or inappropriate care, and focusing
on areas where the trust fund is most at risk, i.e., highest volume and/or highest dollar codes.”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04, chapter 17, section 20, requires
Medicare contractors to pay for certain drugs based on the published average sales price. The
maximum allowable payment equals the lesser of the Part B drug fee schedule amount times the
number of units billed or the claimed amount. The Medicare contractor pays the provider
80 percent of the maximum allowable payment amount; the beneficiary pays the remaining
20 percent.

CMS’s Transmittal 54, Change Request 3022, defined a service unit under HCPCS code J2505
as “injection, pegfilgrastim [Neulasta] 6mg.” Therefore, during our audit period, for
every 6 milligrams of pegfilgrastim administered to a patient, providers should have billed
Medicare for one service unit. The transmittal instructed Medicare contractors to inform
providers of this requirement.

INCORRECT NUMBER OF SERVICE UNITS BILLED

For all 105 claims reviewed, the 7 providers billed Medicare for the incorrect number of service
units of Neulasta. Rather than billing one service unit for every 6 milligrams of Neulasta
administered, as Medicare required, providers billed more than one service unit for every
6 milligrams. Specifically, for 93 of the 105 claims, 6 providers incorrectly billed for 6 service
units rather than 1 service unit for every 6 milligrams of Neulasta. For the 12 remaining claims,
1 provider billed for 10 service units rather than 1 service unit for every 6 milligrams of


4
    All overpayments were for services provided during CYs 2004 and 2005.

                                                         4
Neulasta. Consequently, NHIC and Noridian paid these providers $398,704 instead of $204,751,
resulting in overpayments totaling $193,953.

The table below summarizes the results for all seven providers reviewed.

                           Neulasta Overpayments at the Seven Providers


                               Calendar No. of              Medicare        Correct
      Provider       State      Year(s)  Claims              Payment        Payment       Overpayment
         1            CA       2004–2005   13               $108,890        $25,704         $83,186
         2            CA          2005     12                 62,400         19,949           42,451
         3            CA       2004–2005   49                123,844         96,915           26,929
         4            CA          2004     13                 41,418         26,078           15,340
         5            CA          2004      4                 18,893          8,024           10,869
         6            CA          2004      5                 17,040         10,030            7,010
         7            HI          2004      9                 26,219         18,051            8,168
       Total                              105               $398,704       $204,751        $193,953

All seven providers agreed with our findings that they billed for the incorrect number of service
units of Neulasta and refunded the overpayments to Medicare. The providers attributed the
incorrect billing primarily to the change in the number of milligrams per service unit of Neulasta
from 1 milligram to 6 milligrams.

MEDICARE SYSTEM EDITS

The medically unlikely edits that CMS required Medicare contractors to use starting in
January 2007 did not include Neulasta injections. Therefore, during our audit period, NHIC and
Noridian processed claims submitted by providers for more than one service unit of Neulasta. 5

RECOMMENDATION

We recommend that Palmetto consider reviewing Neulasta claims with the incorrect number of
service units that were not part of this review.

PALMETTO COMMENTS

In its comments on our draft report, Palmetto concurred with the results of our reviews at the
seven providers in California and Hawaii and stated that it will take our recommendation under
advisement. Palmetto’s comments are included in their entirety as the Appendix.




5
 In October 2006, Palmetto implemented a system edit that suspended all claims for which the provider billed for
more than one unit of Neulasta.

                                                        5
                                       OTHER MATTER

We reviewed CMS’s National Claims History file to determine whether there were paid
Medicare Part B claims with more than one service unit of Neulasta after our audit period. We
identified one claim for a California provider that billed Medicare for more than one service unit
in May 2008 with potential overpayments greater than $5,000. Based on the Medicare Part B
drug fee schedules published by CMS, we estimate that this provider received approximately
$7,000 in potential overpayments for five service units of Neulasta.

In its comments on our draft report, Palmetto provided information on actions taken to recoup
the overpayment for this claim.




                                                6
APPENDIX
                                                                                                     Page 1 0[2


                   APPENDIX: PALMETTO GBA COMMENTS 




             Palmetto GSA 


September 29,2010

Lori A. Ahlstrand
Regional Inspector General for Audit Services
Office of Audit Services, Region IX
90 - 7th Street, Suite 3-650
San Francisco, CA 94103

Re: Draft Report number A-09-10-02042

Dear Ms. Ahlstrand,

We have reviewed the letter dated September, 2010 detailing the draft report entitled Review   (i/
Medicare ParI B Carrier Paymel1lsfor Neu/asla !J~jecliolls ill Caljforllia alld Hml'aiifor
calendar Years 2004 throll[;h 2007.

We understand the objective of the audit was to determine whether seven selected providers
billed Medicare for the correct number of service units of Neulasta. During the selection period
of calendar years 2004 through 2007, the National Heritage Insurance Company (NHIC) and
Noridian Mutual Insurance Company (Noridian) for California and Hawaii were the Medicare
Part B carriers for California and Hawaii respectively. In September 2008, Palmetto GBA
assumed full responsibility as the Medicare Administrative Contractor for Jurisdiction 1, which
includes California and Hawaii.

Based upon your review, NHIC and Noridian processed and paid more than 292 million Part B
claims, of which 75 ,587 claims included Neulasta injections in these two states. The review
concluded that NHIC and Noridian paid 7 providers $398,704 instead of$204,751, resulting in
overpayments totaling $193,953. Palmetto GBA concurred with these findings at the time. The 7
providers identified during the review were contacted by the OIG and the providers agreed with
the findings and refunded the overpayments to Medicare. We understand your recommendation
to consider reviewing additional Neulasta claims with the incorrect number of service units and
will take this under advisement. The claims and history for the period in question have been
purged from the Medicare claims system and will require significant eflort.

The one additional California claim outside the review period identified by the OIG as a
potential overpayment greater than $5,000 has been referred to the Palmetto GBA financial
department for recoupment of the overpayment.

Palmetto GBA has maintained edits and other processing controls since 2006 to ensure
appropriate payments of Neulasta injections, HCPCS Code J2505 fro the claims it processed for
payment. Upon the transition of the Jl workload from NHIC and Noridian in the 3'd quarter of
FY 2008, the edit for the Neulasta J code caused any claim submitted to be systematically
                                                                                                      Page 2 0[2




A h i!c;trdrKl
Sf~ ptF; rn b(::T   79 701 U




      rejected as unprocessable when submitted with a quantity greater than one (1) unit. Effective
      July 7, 2010, the code was added to the CMS controlled Medical Unlikely Editing (MUE) and
      now systemically denies when more than one unit is submitted per claim line. In addition,
      Palmetto has a Local Coverage Decision (LCD 28259) in place for additional medical coverage
      reVlew.

      Feel free to contact me or Ms. Glenda Piatt at (740) 574-4089 with any questions

      Sincerely,
       Mike 

       Barlow i~i:":.: ·:.:::: 

      Mike Barlow
      Palmetto GBA
      Vice President
      Jl Project Manager
